No. 19-

1179.

In the

Supreme (tart of tlje Utmtcii States

MARKTARGOWSKI,
Petitioner,
v.
ZACHARY LEE RAWLINS,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Eighth Circuit

PETITION FOR A WRIT OF CERTIORARI

Don Trimble, Attorney
Counsel of Record
2010 South Summit Street
Little Rock, AR 72202
(501) 658-4066
don@dontrimble.com
Counsel for Petitioner

293705

0

COUNSEL PRESS

(800) 274-3321 • (800) 359-6859

%

QUESTIONS PRESENTED
Whether no reasonable jury could have reached the
same verdict based on the evidence submitted.

1
PETITION FOR WRIT OF CERTIORARI
Mark Targowski, by and through his counsel, Don
Trimble, respectfully petitions this court for a writ of
certiorari to review the judgment of the 8th Circuit Court
of Appeals.
OPINION BELOW
The decision of the 8th Circuit Court of Appeals
denying Mr. Targowskis’ direct appeal is reported as
Mark Targowski v. Zachary Lee Rawlins, 18-2878 (8th
Cir, 2019) Mr. Targowskis’ case was affirmed by the
Eighth Circuit on September 19, 2019. That Per Curiam
decision is attached at Appendix (“App.”) at la.
JURISDICTION
Mr. Targowski invokes this Court’s jurisdiction under
28 U.S.C. Sec. 1257, having timely filed this petition for a
writ of certiorari within ninety days of the Eighth Circuit
Judgment.
CONSTITUTIONAL PROVISION INVOLVED
United States Constitution, Amendment IV:
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable searches
and seizures, shall not be violated, and no Warrants shall
issue, but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to be
searched, and the persons or things to be seized.

3

even though the registered guest had called the police
but before they arrived merely changed his mind about
the desire for police intervention and clearly states so
to police officers, who then broke a window entered the
hotel room and arrested the registered guest of that
room, violating his Fourth amendment Rights to be free
of unreasonable searches and seizure and his Fourteenth
Amendment Right to be free of Excessive Force. Craig
Outdoor Advert., Inc. v. Viacom Outdoor, Inc., 528 F.3d
1001,1009 (8th Cir. 2008); Patterson v. City of Omaha, 779
F.3d 795, 801 (8th Cir. 2015) Young v. Harrison, 284 F.3d
863 (8th Cir. 2002), United States v. Morales, 737 F.2d 761,
765 (8th Cir. 1984).
CONCLUSION
For the Foregoing reasons, Mr. Targowski requests
that this Court issue a writ of certiorari to review the
judgment of the United States Eighth Circuit Court of
Appeals.
DATED this 10th day of February, 2020
Respectfully submitted,
Don Trimble, Attorney
Counsel of Record
2010 South Summit Street
Little Rock, AR 72202
(501)658-4066
don@dontrimble.com
Counsel for Petitioner

xidNaaav

